Nusenda Federal Credit Union

VISA® CREDIT CARD
AGREEMENT AND DISCLOSURE
Terms. In this Agreement, the following definitions will apply
throughout. The words, “you,” “your,” and “yours” mean the
person(s) who applied for the Account, the person(s) to
whom we issue the Card(s) or Convenience Checks, the
person who uses the Account, co-borrower/co-signer, and
any joint applicant or guarantor all of whom are bound by all
the terms and conditions of the Agreement. The word “Card”
means one or more Cards that we have issued with your
Account number. The words “we,” “us,” and “our” mean
Nusenda Federal Credit Union, Albuquerque, New Mexico,
its successors and assigns. The words “Convenience
Checks” mean one or more checks that we may provide to
access your Credit Card Account. This Agreement is binding
on each Cardholder, borrower, or co-borrower obtaining
credit with the Card, jointly and severally.
Agreement and Promise to Pay. This is your current
agreement governing the use of your Nusenda Federal Credit
Union Credit Card (“Card”) Account (“Account”). The first
time that you or someone you authorize uses, accepts
or signs the Card(s), it will mean that you have accepted
and agreed to this Agreement and you promise to pay us
the total amount of any purchases, advances and
Convenience Check advances together with any Finance
Charges, fees, other charges and collection costs. If this is a
Joint Account, each of you separately and all of you jointly
will be liable for all amounts owing on the Account and will
be responsible for complying with this Agreement, even if the
Account is only used by one of you. Further, if this is a Joint
Account, each of you agrees that we may mail statements
and notices regarding the Account to the single address
shown on our records as the address for statements and
notices regarding the Account (“the Account Address”).
Use of Account. Your line of credit amount and Card terms
will be disclosed to you when you receive your Card. The full
amount of your credit line is available to buy or lease goods
or services wherever the Card is honored. In most cases, you
will be asked to present your Card and sign a sales slip or to
give your Personal Identification Number. Your cash advance
limit is available for cash advances, cash advances at any
automated teller machine that accepts the Card or by using
Convenience Checks. The total amount charged on your
Account, including purchases, cash advances, Finance
Charges, fees or other charges must always remain below
your credit limit.
Internet gambling may be illegal in the jurisdiction in which
you are located, including the United States. Your card may
only be used for legal transactions. Display of a payment
card logo by an online merchant does not mean that Internet
gambling transactions are lawful in all jurisdictions in which
you may be located.
Additional Cards. You may request additional Cards on
your Account for yourself or others and you may permit
another person to have access to the Card or Account
Number, provided that person signs a Credit Card application
or an authorized user form. However, if you do, you are liable
for all charges made by those persons. You must notify us to
revoke permission for any person you previously authorized
to use your Account. If you tell us to revoke another person’s
use of your Account, we may close the Account and issue a
new Card or Cards with a different Account Number. You are
responsible for the use of each Card issued on your Account
according to the terms of this Agreement. Notwithstanding
the foregoing, due to federal laws and regulations, if you are
under 21 years of age and you revoke the permission of your
co-borrower, we may request that you obtain another
co-borrower who is 21 years of age or older or terminate your
account, in our sole discretion.
Balance Transfers and Promotions. We may from time
to time offer special rates on balance transfers and balances
created through other promotional programs. If you transfer
a balance from another creditor’s Account through a balance

transfer promotion, the transferred balance will be subject to
the terms of the applicable balance transfer offer. Balance
transfers may be treated as cash advance transactions. With
each balance transfer and other promotional programs, the
terms, including the ANNUAL PERCENTAGE RATE and the
corresponding monthly periodic rate used in determining
your FINANCE CHARGE and the effective dates, will be
detailed in the offer.
Convenience Checks. Convenience Checks may be used
to purchase goods and services or to obtain cash up to the
amount of your available credit limit. We will treat
Convenience Checks as a cash advance. We will charge a
Finance Charge on Convenience Check advances from the
date the Convenience Check is posted to your Account, until
the day we receive payment in full. Each Convenience Check
must be in the form we have issued and must be used
according to the instructions we give you. Only the person
whose name is printed on them may use Convenience
Checks. Convenience Checks may not be used to pay any
amount owed to us under this or any other Nusenda
Federal Credit Union Card Agreement. We will not certify any
Convenience Checks, nor will we return paid
Convenience Checks.
Statements. Each month in which your Account has a
balance you will receive a statement showing the balance
due. Your statement will show the minimum amount you
must pay and the date by which we must receive your
payment. The due date will be at least 21 days after the
statement is mailed. The statement also shows your current
credit limit and an itemized list of current charges, cash
advances, including cash advances made by Convenience
Checks, payments and credits, an itemized summary of the
purchase balance, the cash advance balance, Finance
Charges on each, and other important information.
FINANC E CHARGES :
Please see enclosed Addendum for information on
Finance Charges.
Payment Default. The Penalty Rate applies to new and
outstanding account balances if you fail to make the
required minimum payment to Nusenda Federal Credit
Union within 60 days after the payment is due. The
increase will terminate once the cardholder has made six
consecutive minimum payments on time, starting with the
first payment after the date on which it is imposed. If the
six consecutive on time minimum payments are not made,
we have the option of keeping the Penalty ANNUAL
PERCENTAGE RATE on your account indefinitely, subject to
applicable laws and regulations.
Security Interest. (This only applies to Secured Card
Accounts.) To secure payment of all amounts you owe on
your Account or otherwise to Nusenda Federal Credit
Union, you assign, pledge and grant us a security
interest in your interest in the Security Account, including the
initial funds with which you established your Security
Account and any additional funds thereto as well as all
interest accrued thereon, pursuant to the Security Account
Assignment Agreement you executed.
Minimum Monthly Payment. You agree to pay a minimum
monthly payment equal to: (1) the greater of $10.00 or 2%
of the new balance (rounded to whole dollars), plus the past
due amount of any prior minimum monthly payments; plus
(2) the full amount by which the Account balance exceeds
your credit line. If the total amount owed is less than $10.00,
the minimum monthly payment will equal the entire new
balance shown on the monthly statement. You may pay any
amount in excess of your minimum monthly payment and
you may pay your Account in full. Should you fail to make
your minimum payment, by the payment due date, you agree
to pay a Late Payment Fee. You agree that we may change
this Late Payment Fee.

VISA® CREDIT CARD AGREEMENT AND DISCLOSURE (Cont.)
Additional Payment Terms. All payments must be made
in U.S. dollars and delivered to us at any one of our branch
offices or to the address shown on the monthly statement. If
we receive your payment before 5:00 p.m. (Mountain
Standard Time) on a business day, at the address shown on
the front of your monthly statement or at any of our branch
offices, we will credit your payment as of the date of receipt.
All other payments will be credited to your Account on the
next business day following receipt. We may accept late or
partial payments as well as payments marked “PAID IN
FULL” or other restrictive endorsements, without losing any
of our rights under this Agreement and without such
payments constituting full accord and satisfaction of the
debt. If you make payments using personal checks, and your
financial institution refuses to pay the check and returns it
to us, you agree to pay a Return Payment Fee. If your loan
Account balance is less than the minimum payment amount
you must pay the entire balance. You may repay all or part of
what you owe at any time. However, so long as you owe any
amount you must continue to make your periodic minimum
payment. Your minimum monthly payment will be allocated
to your account in accordance with all applicable laws and
regulations.
Personal Identification Number. We will issue you a
Personal Identification Number (“PIN”) to be used with your
Card. You agree not to write this PIN on your Card, and not to
carry your PIN with you at the same time as you carry your
Card. We will treat any charge made by you using your Card
and PIN as having been authorized by you. If you keep your
PIN with the Card, we can refuse to reissue your Card.
Change of Terms. We can change the terms of this
Agreement, including all fees, other charges and Annual
Percentage Rate, at any time, subject to applicable laws and
regulations.
Events of Default. You are in default if you fail to pay the
minimum payment listed on each billing statement on time,
file for bankruptcy, exceed your credit limit without our
permission, or default on this or any other Nusenda
Federal Credit Union Card Agreement you have with us. If
you are in default, we may close your Account and require a
shorter amortization of your account balance, subject to
applicable laws and regulations. No notice is required.
We may also declare the whole balance due if you die, if
you make false or misleading statements on your
application, or if other creditors attach or garnish your
property. If you have given us a security interest in a share
Account, share draft Account, or certificate of deposit, we
may use the deposit amount to pay any amount you owe
us.
Collection Costs. If we have to refer collection of your
Account to a lawyer (who is not our salaried employee), to
the extent permitted by law, you will have to pay our
attorney’s fee plus court costs and any other fees.
Information Reporting. We may report your performance
under this Agreement to credit reporting agencies, including
your failure to make minimum payments on time. A negative
credit report may significantly harm your ability to obtain
credit from other sources. We may also obtain follow-up
credit reports on you (for example, when we review your
Account for a credit line increase). We may exchange
information about you or your Account with our affiliates,
and, to the extent permitted by law, with other third parties.
However, if you prefer that we not share such information
with our affiliate companies, just call us at (505) 889-7755

2

or outside the Albuquerque area, 1-800-347-2838. You may
also write to us at Nusenda Federal Credit Union, P.O.
Box 8530, Albuquerque, New Mexico 87198.
Closing Your Account. You may close your Account at any
time by notifying us in writing. However, you remain
responsible to pay the balance according to the terms of this
Agreement. We may close your Account or suspend your
Account privileges at any time without prior notice. We may
also reissue a different Card, Account Number, or different
checks at any time. You must return the Card or the checks
to us upon request.
Lost or Stolen Cards. If any Card, Account Number, PIN or
Convenience Check is lost or stolen, or if you think someone
used or may use them without your permission, notify us at
once by calling the telephone number shown on the billing
statement or by calling 1-800-325-3678. We may require
you to provide certain information in writing to help us find
out what happened. Do not use the Card or Convenience
Checks after we’ve been notified, even if they are found or
returned. You will not be liable for any unauthorized
purchases or cash advances made after we’ve been notified
of the loss or the theft; however, you must identify for us the
charges on the billing statement that were not made by you
or someone authorized by you, and from which you received
no benefit.
Credit Authorizations. We are not responsible if we do not
approve a purchase or cash advance on your Account, or if a
third party refuses to accept or honor the Card, even if you
have sufficient credit available. We may limit the number of
purchases or cash advances which may be approved in one
day. If we detect unusual or suspicious activity on your
Account, we may temporarily suspend your credit privileges
until we can verify the activity. We may approve purchases or
cash advances that cause the balance to exceed your credit
line without waiving any of our rights under the Agreement.
Waiver. Our failure to exercise, or our delay in exercising any
of our rights under this Agreement for any reason does not
mean that we will be unable to exercise these rights later.
Assignment. You may not sell or transfer your Account or
any rights or obligations hereunder without our prior written
consent. We may sell, assign or transfer your Account and
any amounts owed by you to another creditor at any time
without prior notice unless otherwise required by law. If we
do, this Agreement shall remain in effect.
Applicable Law. Federal law and the law of the state where
the Credit Union is located shall govern the terms and
enforcement of this Agreement. Invalidity of any part of
this Agreement does not affect the remaining parts.
Questions. If you have any questions about your statement,
please contact us. You should write to Nusenda Federal
Credit Union, P.O. Box 8530, Albuquerque, New Mexico
87198, or call us at the telephone number that will appear
on your monthly statement. In case you believe there is a
mistake on your statement, read the following information
regarding your right to dispute billing errors.
Your monthly statement shall be presumed to be correct
unless you notify us in writing within 15 days from the date
of mailing in business transactions, or within 60 days from
the date of mailing in case of consumer transactions.
“Consumer Transaction” means purchases or advances for
personal, family or household purposes.

VISA® CREDIT CARD AGREEMENT AND DISCLOSURE (Cont.)
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE

3

After we finish our investigation, one of two things
will happen:

This notice contains important information about your
rights and our responsibilities under the Fair Credit
Billing Act.

• If We Made a Mistake: You will not have to pay the
amount in question or any interest or other fees related
to that amount.

What To Do If You Find a Mistake on Your Statement. If
you think there is an error on your statement, write us at:

• If We Do Not Believe there was a Mistake: You will have
to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the
amount we think you owe.

Customer Service
P.O. Box 30495
Tampa, FL 33630

In your letter, give us the following information:
• Account Information: Your name and Account
Number.
• Dollar Amount: The dollar amount of the
suspected error.
• Description of Problem: If you think there is an
error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on
your statement.
• At least 3 business days before an automated
payment is scheduled, if you want to stop payment
on the amount you think is wrong.
You must notify us of any potential errors in writing. You may
call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1.

Within 30 days of receiving your letter, we must notify
you that we received your letter. We will also notify
you if we have corrected the error.

2.

Within 90 days of receiving your letter, we must
either correct the error or explain to you why we
believe the bill is correct.

While we investigate whether or not there has been
an error:
• We cannot try to collect the amount in question, or
report you as delinquent on that amount.
• The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of your
balance.
• We can apply any unpaid amount against your credit
limit.

If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct.
Your Rights If You Are Dissatisfied With Your Credit
Card Purchases. If you are dissatisfied with the goods or
services that you have purchased with you credit card, and
you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home
state or within 100 miles of your current address, and
the purchase price must have been for more than
$50.00. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to
you, or if we own the company that sold you the goods
or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account
do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are
still dissatisfied with the purchase, contact us in
writing at:
Customer Service
P.O. Box 30495
Tampa, FL 33630

While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe
an amount and you do not pay, we may report you as
delinquent.

Federally insured by NCUA • Equal Opportunity Lender

VADl 3/17

Nusenda Federal Credit Union

VISA® CREDIT CARD
AGREEMENT AND DISCLOSURE
ADDENDUM: Prime + 9.75%

FINANCE CHARGES:
Balance Computation Method. We figure the interest
charge on your account by applying the periodic rate to the
"average daily balance" of your account. To get the "average
daily balance" we take the beginning balance of your
account each day, add any new purchases, advances and
fees, and subtract any unpaid interest or other finance
charges and any payments or credits. This gives us the daily
balance. Then, we add up all the daily balances for the
billing cycle and divide the total by the number of days in the
billing cycle. This gives us the "average daily balance."
Annual Percentage Rate for Purchase Transactions.
The ANNUAL PERCENTAGE RATE (“APR”) is variable and
may change monthly based on changes in an index. The
index is the Prime Rate, as published in The Wall Street
Journal ("Index"). If the Index becomes unavailable during
the term of this account, the credit union may substitute a
new Index after notice to you. The interest rate will be
adjusted on the first day of each billing cycle, based on the
most recent Index figure available as of the fifth business
day of the last month immediately preceding the new billing
cycle. If the fifth day falls on a Saturday, Sunday or holiday,
the Prime Rate published on the next business day will be
used. To determine the ANNUAL PERCENTAGE RATE for
purchase transactions, we add a “Margin” of 9.75% to the
Index. This gives us the new purchase transaction APR. The
ANNUAL PERCENTAGE RATE will not exceed the maximum
rate of 18.0%. The monthly periodic rate of FINANCE
CHARGES is 1/12th of the ANNUAL PERCENTAGE RATE.
The ANNUAL PERCENTAGE RATE for purchases could
change monthly. An increase in the Prime Rate may increase
both the number of minimum monthly payments required to
repay the account balance and the amount of each minimum
monthly payment. The Prime Rate as of March 20, 2017 was
4.00%, which results in an ANNUAL PERCENTAGE RATE of
13.75% for purchase transactions and a monthly periodic
rate of FINANCE CHARGE of 1.1458%. To find out the
current prime rate, visit www.bankrate.com/rates/interestrates/wall-street-prime-rate.aspx.
Finance Charges On Purchases. We will calculate the
Finance Charge on your Account for purchase transactions,
if you did not pay the total New Balance listed on the last
billing statement in full by the payment due date. When you
do not pay the New Balance in full, Finance Charges on
purchases begin to accrue on the date the purchase is
posted to your Account. If there is a FINANCE CHARGE due
which is less than $1.00, you will be charged a minimum
FINANCE CHARGE of $1.00.
Annual Percentage Rate for Cash Advances. ­The
ANNUAL PERCENTAGE RATE (“APR”) is variable and may
change monthly based on changes in an Index. The Index is
the Prime Rate as published in The Wall Street Journal
("Index"). If the Index becomes unavailable during the term
of this account, the credit union may substitute a new Index
after notice to you. The interest rate will be adjusted on the
first day of each billing cycle, based on the most recent Index
figure available as the fifth business day of the last month
immediately preceding the new billing cycle. If the 5th day
falls on a Saturday, Sunday or holiday, we use the Prime Rate
published on the next business day. To determine the
ANNUAL PERCENTAGE RATE for cash advance
transactions, we add a “Margin” of 9.75% to the Index. This

gives us the new cash advance transaction APR. There is no
limit on the amount the APR may increase at any one time.
The ANNUAL PERCENTAGE RATE will not exceed the
maximum rate of 18%. The monthly periodic rate of
FINANCE CHARGE is 1/12th of the ANNUAL PERCENTAGE
RATE.
The ANNUAL PERCENTAGE RATE for cash advances may
change monthly. An increase in the Prime Rate may increase
both the number of minimum monthly payments required to
repay the Account balance and the amount of each minimum
monthly payment. The Prime Rate as of March 20, 2017 was
4.00%, which results in an ANNUAL PERCENTAGE RATE
OF 13.75% for cash advance transactions and a monthly
periodic rate of FINANCE CHARGE OF 1.1458%. To find out
the current prime rate, visit www.bankrate.com/rates/
interest-rates/wall-street-prime-rate.aspx.
Finance Charges on Cash Advances. We will charge a
Finance Charge on cash advances from the day you take
them until the day we receive payment in full as follows: To
figure the Finance Charge for a billing cycle, we will apply a
monthly periodic rate of Finance Charge to the average daily
balance of your cash advance transactions, including current
transactions, for the billing cycle. If there is a FINANCE
CHARGE due which is less than $1.00, you will be charged
a minimum FINANCE CHARGE of $1.00. For each cash
advance you obtain, you agree to pay a FINANCE CHARGE
in the form of a cash advance transaction fee equal to 1% of
the cash advance, not less than $2.00, but not more than
$20.00.
Effect of Change in the Annual Percentage Rate. The
ANNUAL PERCENTAGE RATE (“APR”) is variable and may
change monthly based on changes in an Index. The Index is
the Prime Rate, as published in The Wall Street Journal
("Index"). If the Index becomes unavailable during the term
of this account, the credit union may substitute a new Index
after notice to you. The interest rate will be adjusted on the
first day of each billing cycle, based on the most recent Index
figure available as of the fifth business day of the last month
immediately preceding the new billing cycle. Any increase in
APR may increase your minimum payment.
Payment Default. The Penalty Rate applies to new and
outstanding account balances if you fail to make the
required minimum payment to Nusenda Federal Credit
Union within 60 days after the payment is due. The increase
will terminate once the cardholder has made six consecutive
minimum payments on time, starting with the first payment
after the date on which it is imposed. If the six consecutive
on time minimum payments are not made, we have the
option of keeping the Penalty ANNUAL PERCENTAGE RATE
on your account indefinitely, subject to applicable laws and
regulations.
Annual Percentage Rate for the Default Rate. The
ANNUAL PERCENTAGE RATE (“APR”) is currently nonvariable and is tied to the National Credit Union
Administration's established maximum rate of interest. As of
March 20, 2017 the rate is 18.00%. The monthly periodic
rate of FINANCE CHARGE is 1/12th of the ANNUAL
PERCENTAGE RATE which results in a monthly periodic rate
of a FINANCE CHARGE of 1.50% . If the six consecutive on
time minimum payments are not made, we have the option
of keeping the Penalty APR on your account indefinitely.

® CREDIT CARD AGREEMENT AND DISCLOSURE (Cont.) 				2
VISA
Auto
Rental Collision Damage Waiver Program (Cont.)

OTHER FEES:
A. Late Fee - if you fail to make your minimum payment on
time, a late payment fee will be assessed. You agree to
pay a Late Payment Fee of up to $25.00. You agree that
we may change this Late Payment Fee.
*If we receive more than one of your last six payments
after the due date listed on your monthly statement, you
may be assessed a Late Payment Fee of up to $35.00.
B. Returned Payment Fee - If you make payments using
personal checks, and your financial institution refuses to
pay the check and returns it to us, you agree to pay a
Return Payment Fee of up to $25.00.
C. 
Stop Payment Fee - We will assess a $25.00 Stop
Payment Fee when the payment of a Convenience Check
is stopped at your request. You may stop payment on a
Convenience Check by notifying us in writing at P.O. Box
8530, Albuquerque, New Mexico 87198. Once a charge
is made through the use of the Card or Account Number
we cannot "stop payment" on the charge. If there is a
dispute involving a charge on your Account, please refer
to the section entitled "Your Billing Rights" in the Visa
Credit Card Agreement and Disclosure.
D. Cash Advance Fee - We will assess a FINANCE CHARGE
in the form of a cash advance transaction fee equal to 1%
of the cash advance, not less than $2.00, but not more
than $20.00.
E. Copy Charges - A $2.00 per page fee will be assessed for
each additional copy you request of a monthly billing
statement. A $4.00 charge will be assessed for each
charge slip copy you request.
F. Annual Fee - None.
Foreign Currency Exchange Rate. Purchases and cash
advances made in foreign countries will be billed to you in
U.S. dollars. Visa charges a 0.8% fee on all international
transaction where a currency conversion is not performed.
When a currency conversion occurs, Visa charges a 1.0%
fee.
The conversion rate to U.S. dollars will be made in accordance
with the operating regulations for international transactions
established by Visa International Inc. Unless the converted
amount is determined to be in error, the converted amount
will be due as well as any conversion charges that may be
imposed.

Federally insured by NCUA • Equal Opportunity Lender

ADM3 3/17

